USDOJ: Maryland Resident Charged with Making False Statements
and Submitting False Documents in Applications for Federal Jobs
Skip to main content | Skip to footer site map
Home
About Us
The Attorney General
Budget & Performance
Strategic Plans
Agencies
Business & Grants
Business Opportunities
Small & Disadvantaged Business
Grants
Resources
Forms
Publications
Case Highlights
Legislative Histories
Briefing Room
Justice News
The Justice Blog
Public Schedule
Videos
Photo Gallery
Careers
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
Contacts
Home   »  Briefing Room    »  Justice News
Printer Friendly
Department of Justice
Office of Public AffairsFOR IMMEDIATE RELEASEWednesday, March 16, 2011
Maryland Resident Charged with Making False Statements
and Submitting False Documents in Applications for Federal Jobs
WASHINGTON – A Maryland woman has been charged by a federal grand jury in Alexandria, Va., with making false statements
and submitting false documents in multiple job applications to U.S. federal government agencies, announced Assistant Attorney General Lanny A. Breuer of the Criminal Division; U.S. Attorney Neil H. MacBride of the Eastern District of Virginia; James W. McJunkin, Assistant Director in Charge of the FBI’s Washington Field Office; and Inspector General H. David Kotz of the U.S. Securities and Exchange Commission (SEC.)
The indictment returned today charges
Karen M. Lancaster, 52, of Upper Marlboro, Md., with four counts of making false statements, three counts of submitting false documents and one count of engaging in a concealment scheme.
Lancaster will be arraigned on March 25, 2011, in U.S. District Court in Alexandria.
According to the indictment,
Lancaster was employed in various positions with the U.S. Department of Defense (DoD)
from
1991 until March 2005, when she was notified by DoD that she was being fired due to performance failures.
In October 2006, according to the indictment, Lancaster reached a settlement with DoD in which she was allowed to resign from DoD, retroactive to March 2005.
Between 2006 and 2008, Lancaster applied for jobs at the U.S. Departments of State, Commerce and Defense, as well as with the SEC.
According to the indictment, as part of the application processes, Lancaster allegedly submitted documents that falsified and concealed information about
her criminal history, employment history and suitability for employment with the federal government.
Among the documents submitted by Lancaster were SF-50 forms, which are used by the U.S. federal government to document and report certain personnel actions such as hirings, promotions, conversions and separations; OF-306 forms, which are used to, among other things, determine an applicant’s acceptability for federal employment; and SF-86 forms, which are used in conducting background investigations for applicants and employees requiring a security clearance.
According to the indictment, Lancaster made false statements on, among other documents, OF-306 and SF-86 forms, and provided two federal agencies with fraudulent versions of her SF-50 form.
Specifically, according to the indictment,
Lancaster
concealed and falsified information in her application materials about her prior arrests, charges, convictions and prison terms; the unfavorable circumstances under which she had resigned from prior federal employment; the roles and responsibilities she had at previous federal jobs; and her salary history.
The maximum penalty for each count of making a false statement, submitting a false document and engaging in a concealment scheme is five years in prison. Lancaster also faces a maximum fine of $250,000 per count.
An indictment is merely an accusation, and a defendant is presumed innocent unless proven guilty in a court of law.
This case is being prosecuted by Trial Attorneys Ethan H. Levisohn and Peter Mason of the Criminal Division’s Public Integrity Section, and Assistant U.S. Attorney Mark D. Lytle for the Eastern District of Virginia.
The case was investigated by the FBI’s Washington Field Office and the SEC’s Office of Inspector General.
11-341Criminal Division
Department of Justice Accomplishments
Open Government at the Department of Justice
Report a Crime
Get a Job
Locate a Prison, Inmate, or Sex Offender
Apply for a Grant
Submit a Complaint
Report Waste, Fraud, Abuse or Misconduct to the Inspector General
Find Sales of Seized Property
Find Help and Information for Crime Victims
Register, Apply for Permits, or Request Records
Identify Our Most Wanted Fugitives
Find a Form
Report and Identify Missing Persons
Contact Us
Site Map
Archive
Accessibility
FOIA
No FEAR Act
Information Quality
Privacy Policy
Legal Policies & Disclaimers
For Employees
Office of the Inspector General
Government Resources
Plain Writing
USA.gov
BusinessUSA
ABOUT
The Attorney General
Budget & Performance
Strategic Plans
AGENCIES
BUSINESS
Business Opportunities
Small & Disadvantaged Business
Grants
RESOURCES
Forms
Publications
Case Highlights
Legislative Histories
NEWS
Justice News
The Justice Blog
Public Schedule
Videos
Photo Gallery
CAREERS
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
CONTACT